HHS/OIG, Audit - "Follow-up Review of the Medicaid Drug Rebate Program in
Florida," (A-04-07-07022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of the
Medicaid Drug Rebate Program in Florida," (A-04-07-07022)
April 11, 2008
Complete
Text of Report is available in PDF format (213 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We conducted a follow-up audit of Floridas Medicaid drug
rebate program to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Florida drug rebate program
and (2) established controls over the drug rebate program, including the
collection of rebates on single-source drugs administered by physicians.
Manufacturers may make their outpatient drugs eligible for Federal Medicaid
funding by entering into a rebate agreement with CMS and paying quarterly
rebates to the States.  We found that the State had implemented the
recommendations from our prior audit.  Therefore, this report contains no
recommendations.